Bistnct of Coltimliia
Court of Appeals

f. i

No. 15-CF-1378

g j
NOV 212019

LEVI RUFFIN,

DISTRICT OF COLUMBIA
COURT OF APPEALS

Appellant,

CF1-13804-14

v.

UNITED STATES,
Appellee.
On Appeal from the Superior Court of the District of Columbia
Criminal Division
BEFORE: Glickman and Fisher, Associate Judges, and Ferren, Senior Judge.
JUDGMENT
This case came to be heard on the transcript of record and the briefs filed,
and it was argued by counsel. On consideration whereof, and as set forth in the opinion
filed this date, it is now hereby
ORDERED and ADJUDGED that the judgment of the Superior Court is
affirmed.
For the Court:

JlWio a. Castillo
Clerk of the Court

Dated: November 21, 2019.
Opinion by Associate Judge Stephen Glickman.

Notice: This opinion is subject to formal revision before publication in the
Atlantic and Maryland Reporters. Users are requested to notify the Clerk of the
Court of any formal errors so that corrections may be made before the bound
volumes go to press.
DISTRICT OF COLUMBIA COURT OF APPEALS
No. 15-CF-1378
Levi Ruffin, Appellant,
v.

\\ 2\
District of Columbia
Court of Appeals

G jfioCastillo

United States, Appellee.

n i"

;|&rk o1 Court

Appeal from the Superior Court
of the District of Columbia
(CF1-13804-14)
(Hon. Rhonda Reid-Winston, Trial Judge)
(Argued January 16,2018

Decided November 21, 2019)

Debra Soltis, with whom Paul Y. Kiyonaga and Marcus Massey were on the
brief, for appellant.
Kristina Ament, with whom Channing D. Phillips, United States Attorney at
the time the brief was filed, and Elizabeth Trosman, John P. Mannarino,
Kenechukwu O. Okocha, Akhi Johnson, and Eric S. Nguyen, Assistant United
States Attorneys, were on the brief, for appellee.
Before Glickman and Fisher, Associate Judges, and Ferren, Senior Judge.
GLICKMAN, Associate Judge: Appellant, Levi Ruffin, was convicted after a
jury trial of the following offenses: first-degree burglary while armed; kidnapping
while armed; third-degree sexual abuse while armed; attempted robbery while
armed; assault with a dangerous weapon; and assault with significant bodily injury.

" "**

https://www.courtlistener.com/opinion/4680531/ruffin-v-united-states/

Ruffin v. United States - CourtListener.com

/edelen-v-state/?)
• Luz Escobar Enriquez
v. Eric Holder, Jr.
(/opinion/814203/luzescobar-enriquezv-eric-holder-jr/?)
• Edelen v. Oakland
Bank of Savings
(/opinion/3280401
/edelen-v-oaklandbank-of-savings/?)
• United States v.
Edelen (/opinion
/1427387/unitedstates-v-edelen/?)
• Tony Edelen v. State
of Indiana (mem.
dec.) (/opinion
/3206235/tonyedelen-v-state-ofindiana-mem-dec/?)

Notice: This opinion is subject to formal revision before publication in the
Atlantic and Maryland Reporters, users are requested to notify the clerk of the
Court of any formal errors so that corrections may be made before the bound
volumes go to press.
DISTRICT OF COLUMBIA COURT OF APPEALS

NO. 15-CF-1378
LEVI RUFFIN, APPELLANT,
V.
UNITED STATES, APPELLEE.

Appeal from the Superior court
of the District of Columbia
(CFl-13804-14)
(Hon. Rhonda Reid-winston, Trial Judge)
(Argued January 16, 2018

Decided November 21, 2019)

i Search Full List (/?q=related:4457784&stat I®^3cle%e%i^<5r1) with whom Paul Y. Kiyonaga and Marcus Massey were on the
L.... ..... .. .... ... ........ ...................... ...brief,..Tor..appel 1 ant.

Share

Kristina Ament, with whom channing D. Phillips, united States Attorney a
the time the brief was filed, and Elizabeth Trosman, John P. Mannarino,
Kenechukwu 0. Okocha, Akhi Johnson, and Eric S. Nguyen, Assistant United
0
(mailto:?subject=Ruffin%20v.%20UhiS^eeSWrt@8%g®St%®eObUMLi$fc¥idP.d)ft,fe for appellee.
body=https://www. courtlistener.com
Before glickman and fisher, Associate Judges, and ferren, senior Judge.
/opinion/4680531/ruffinv-united-states/) |j
GLICKMAN, Associate Judge: Appellant, Levi Ruffin, was convicted after a
(http://www.facebook.com
/share.php?u=https:
jury trial of the following offenses: first-degree burglary while armed; kidnap
//www.courtlistener.com
/opinion/4680531/ruffinwhile armed; third-degree sexual abuse while armed; attempted robbery while
v-united-states/&t=Ruffin v.
United States at
armed; assault with a dangerous weapon; and assault with significant bodily inj
CourtListener.com) Q
2
(http://twitter.com
in this appeal, he contends the evidence was insufficient to sustain his convic
/home?status=https:
//www.courtlistener.com
for first-degree burglary and kidnapping, and that the trial court erred in deri
/opinion/4680531/ruffinv-united-states/)
his motions to exclude dna test results and a knife found in his possession at
https://www.courtlistene

time of his arrest.

Support FLP

appellant’s convictions.

CourtListener is a project of
Free Law Project
(https://free.law), a federallyrecognized 501(c)(3) non­
profit. We rely on donations
for our financial security.
Please support our work with
a donation.

I. The Evidence at Trial

The complaining witness at appellant’s trial, whom we shall refer to as J
testified that a man wielding a silver folding knife attacked her when she arri

Donate Now (/donate/?re; etiPOP=OBddnate^r»6iir0) of

2 of 27

Concluding that these contentions lack merit, we affirm

September 14, 2013. J.C. lived at the time in one of thr

12/4/2020, 1:55 PM

Ruffin v. United States - CourtListener.com

https://www.courtlistener.com/opinion/4680531/ruffin-v-united-states/

apartments in a row house in Northwest Washington, D.C. Her assailant, who was
later identified as appellant, came up behind her as she was unlocking the fron
door to the building. Putting his hand over her mouth and holding the knife to
face, appellant told her not to move and to drop what she was holding. He then
pushed J.C. through the entrance into the common hallway of the row house,
followed her in, and closed the door behind them. Alone with her in the hallway
and continuing to hold the knife to her face, appellant demanded her money. J.C
started to hand him her debit and credit cards, but appellant slapped them away
3
He then lifted her dress and rubbed his fingers against her genital area throug
underwear.

At that point, J.C. grabbed the hand in which appellant was holding the kj
and pushed him away. A fight ensued, during which appellant bit J.C. on her lef
! cheek and her back, she yelled at him to stop. He pushed her to the floor and f
i

out the front door of the row house. After he was gone, J.C. went into her
] apartment and called the police.

A neighbor in an apartment down the hallway heard and saw part of the
attack through the peephole of her door and called the police. The recording of
that call was played at trial, it captured over 90 seconds of the assault.

J.C. was taken to the hospital by ambulance. She was treated for the bite'
wounds on her cheek and back, and for a lacerated finger (which required six
stitches) and other knife cuts on her hands. A nurse swabbed J.C.’s bite wounds
i

for biological evidence that could help identify her attacker.
4
After several months, the police acquired information linking appellant t

!

the assault.1 in August 2014, officers went to his apartment to arrest him. in
of jeans that appellant asked to put on, the officers found a folding knife wit
silver blade and a black handle, over appellant’s objection to its relevance, t
knife was admitted in evidence against him at trial, along with the parties’
stipulation that it had been in appellant’s possession "as early as November 2

3 of 27

12/4/2020, 1:55 PM

Ruffin v. United States - CourtListener.com

https://www.courtlistener.com/opinion/4680531/ruffin-v-united-states/

i 2013” (i.e., about seven weeks after the assault on J.C.). 2

dna

testing identified appellant as J.C.’s assailant. Two forensic scient.

from the District of Columbia Department of Forensic sciences (DFS) testified t
they received and tested the swabs taken from I.C.’s cheek and back wounds and
swab taken from appellant’s cheek following his arrest in this case.

T

scientists performed the extraction, quantification, and amplification of DNA f
each of those sources and generated dna profiles from them for subsequent
| interpretation and comparison. They did not testify to that interpretation and
1
The nature of this information was not disclosed to the jury in order
avoid potential prejudice to appellant.

2
The stipulation was based on the fact that Mr. Ruffin had the knife in
possession when he was arrested in November 2013 in connection with a matter i
unrelated to this case. (The jury was not informed of this arrest.) The knife w
recorded at that time as appellant’s property, it was returned to appellant bed
his possession of it was not unlawful.
5
comparison, however, because flaws had been detected in DFS’s statistical
computation procedures. These flaws reportedly “resulted in DFS’s overstating t
rarity of certain mixture profiles,”3 i.e., profiles obtained from samples cont;
DNA from more than one person. A panel of experts convened by the United
i

states Attorney’s Office identified "systematic concerns with DFS’s interpretat
of forensic DNA mixtures,”4 and an ansi-asq National Accreditation Board
(anab) 5 audit of dfs likewise found serious problems with its “mixture
interpretation procedures.” The ANAB required dfs to suspend dna testing
until it corrected the problems.

The government arranged for an accredited private laboratory, Bode
Cellmark Forensics (Bode), to interpret and compare the profiles generated by D
in this case. Over appellant’s objection, the court allowed Karin Crenshaw, a
j forensic biologist at Bode, to testify that appellant’s DNA profile matched the

3
Barber v. united States,

4 of 27

12/4/2020, 1:55 PM

Ruffin v. United States - CourtListener.com

https://www.courtlistener.com/opinion/4680531/rufFm-v-united-states/

179 A. 3d 883

r

, 892 (D.C. 2018) (internal
quotation marks omitted).
4

Id. at 891-92.

5 of 27

12/4/2020, 1:55 PM

https://www.courtlistener.com/opinion/4680531/rufFm-v-united-states/

Ruffin v. United States - CourtListener.com

5
“ansi” and “ASQ" refer to the American National Standards institute and
the American Society for Quality.
6
j foreign dna profiles recovered from the swabs of J.C.’s back and cheek wounds.6
According to Ms. Crenshaw, the probability of randomly selecting an unrelated
African American with the same profile as that of the foreign DNA from J.C.’s
back was 1 in 450 quadrillion; and the equivalent random match probability for
| dna from J.C.’s cheek was 1 in 4.1 sextillion. 7

II. Sufficiency of the Evidence

Appellant claims the evidence was insufficient to convict him of the firs
degree burglary and kidnapping charges.

Each claim turns on a question o

|! statutory interpretation.
(

A. First-Degree Burglary while Armed

The crime of burglary in the first degree is defined in D.C. Code § 22-80
(2019 Supp.) in pertinent part as follows (emphasis added): “whoever shall . .

6
in the profiles derived from J.C.’s wounds, Ms. Crenshaw found DNA
1 from only one source (the “foreign” source) besides J.c. herself.
7
J.C.’s description of her assailant had included the fact that he was a
man, and appellant met her description. According to Ms. Crenshaw, the
probability of finding an unrelated Hispanic or Caucasian with the foreign dna
recovered from J.C. was even more remote.
7
enter . . . any dwelling, or room used as a sleeping apartment in any building,
j intent ... to commit any criminal offense, shall, if any person is in any par
s
dwelling or sleeping apartment at the time of such . . . entering, ... be gui
burglary in the first degree.”8 Appellant contends there was insufficient proof
he entered a “dwelling” to support his conviction of this crime because the
evidence at trial established that J.C.’s assailant entered only the common hal
of her multi-apartment row house (and not also her or any other tenant’s indivi
apartment). Appellant asserts that the common hallway of a residential apartmen

6 of 27

12/4/2020, 1:55 PM

Ruffin v. United States - CourtListener.com

https://www.courtlistener.com/opinion/4680531/ruffin-v-united-states/

building is not part of a “dwelling” as that term is used in the burglary statu

The burglary statute does not define the term “dwelling,” and this is the
time this court has been called upon to construe it. its meaning in the statute
whether it encompasses a common hallway in a multi-unit residential building, a;
j questions of statutory interpretation that we decide de novo. 9 Where, as here,
i

8

See also Marshall v. United States,
623 A.2d 551
, 557 (D.C. 1992) (“in
order to prove armed first degree burglary, the government must establish beyon
reasonable doubt, an armed entry . . . into an occupied dwelling with the inten1
commit a crime therein.”); Edelen v. united States,
560 A.2d 527
, 529 (D.C. 1989)
(“The intent of the legislature in regard to 5 22-1801(a) [now codified as § 22
801(a)] is clear from the ordinary meaning of its words; the statute seeks to p'
any entry, with the intent to commit a crime, of a dwelling at a time when anot
person is located anywhere within the confines of that dwelling.”).

9 Will, v
. Kennedy,
211 A. 3d 1108

7 of 27

12/4/2020, 1:55 PM

https://www.courtlistener.com/opinion/468053i/ruffin-v-united-states/

Ruffin v. United States - CourtListener.com

, 1110 (d.c. 2019).
8
statutory terms are undefined, we presumptively construe them according to thei
ordinary sense and plain meaning, taking into account the context in which they
are employed, the policy and purpose of the legislation, and the potential
consequences of adopting a given interpretation. 10 “we may also look to the
legislative history to ensure that our interpretation is consistent with legisl
intent.”11 These principles have guided our interpretation of other language in
first-degree burglary statute.12 They favor giving the term “dwelling” a broad
interpretation that would render § 22-801(a) applicable here.

To begin with, the term “dwelling” is not limited to single-family
occupancies. Apartment houses and other multi-unit residential structures also
included within standard dictionary definitions of “dwelling,” particularly whe
that word is used in burglary and similar statutes. Black’s Law Dictionary, for|
example, states that "dwelling” is the short form of “dwelling-house,” a term
10

See id.; Chase Plaza Condo. Ass’n v. iPMorgan chase Bank, N.A.,

98 A. 3d 166
172 (D.C. 2014); Hood v. united States,
28 A. 3d 553
, 559 (D.C. 2011).
11

Williams, 211 A.3d at 1110
(quoting Facebook, Inc. v. wint,

J

199 A. 3d 625
, 628 (D.C. 2019)).
12
see
Edelen, 560 A.2d at 529

r;

see also Swinson v. united States,

i

483 A.2d 1160

8 of 27

12/4/2020, 1:55 PM

Ruffin v. United States - CourtListener.com

https://www.courtlistener.com/opinion/4680531/rufFin-v-united-states/

, 1163 (D.C. 1984) (construing the word “building” in the second-degree
burglary-statute, then D.c. Code § 22-1801(b), which is now codified as § 22801(b)).
9
meaning, in criminal law, virtually any “building . . . , part of a building .

l

!

□ other enclosed space that is used or intended for use as a human habitation.’'
We think it informative and noteworthy that a number of federal courts, tasked
under the Sentencing Guidelines with determining the “generic” meaning of
“burglary of a dwelling,” have accepted this definition.14

in construing the District’s first-degree burglary statute, we have no re'
to reject the broad ordinary meaning of "dwelling" as any enclosed space used f
human habitation, nor any reason to narrow the definition of “dwelling" to excl
some types of habitation. Section 22-801(a) states that it applies to entries i
“any dwelling” without qualification or exception. ”[T]here is no indication in
legislative history to the contrary.” 15 Congress enacted the first-degree burg
statute in 1967.16 As explained in the report on the bill by the Senate Committ
on the District of Columbia, up until then, “the crime of breaking and entering
13
Dwelling-House, black’s law dictionary (11th ed. 2019). This
definition adds that the term “typically includes . . . structures connected .
enclosed passageway.”
14
See United States v. Garcia-Martinez,
845 F.3d 1126
, 1131-32 (11th Cir.
2017) (citing cases).
15

Edelen, 560 A.2d at 529

9 of 27

12/4/2020, 1:55 PM

https://www.conrtlistener.com/opinion/4680531/rufifin-v-united-states/

Ruffin v. United States - CourtListener.com

(footnote omitted).
16
District of Columbia Crime Act of 1967, Pub. L. 90-226, tit. VI, § 6C
Stat. 736 (1967).
10
the District of Columbia [was] called housebreaking” and did "not distinguish
between dwellings and other premises.”17

The authorized penalty for

housebreaking, imprisonment for up to 15 years, was the same regardless of the j
character of the premises. 18 The 1967 enactment amended the housebreaking
statute to create two degrees of burglary and specify different minimum sentenc'
for each. 19 The graver offense, first-degree burglary of an occupied dwelling j
sleeping apartment, carried an enhanced penalty of no less than 5 nor more than®
years of imprisonment. Burglaries of other premises were covered by the seconddegree statute, which tracked the previous housebreaking statute and continued
carry a maximum penalty of 15 years’ imprisonment. 20

Accepting the broad, ordinary definition of “dwelling” best serves the
evident legislative purpose behind the enactment of the first-degree burglary

statute.

Burglaries of occupied residences are singled out for heightened

punishment because they “pose an increased risk of physical and psychological
17

S. Rep. No. 90-912, at 21 (1967). The previous housebreaking statute
was'enacted in 1901, see 31 Stat. 1323, ch. 854, § 823 (1901), and was codified
1967 as D.C. code § 22-1801.
|
18

Id. 19 S.

10 of 27

12/4/2020, 1:55 PM

Ruffin v. United States - CourtListener.com

https://www.courtlistener.com/opinion/4680531/ruffm-v-united-states/

Rep. No. 90-912, at 21, 28.
20
id.; see D.C. Code § 22-801(b).
11

I

injury." 21 in such burglaries “there is a much greater possibility of confront
resident and a substantial risk that force will be used and that someone will b'
injured, than if one burglarized a building that was not intended for use as
habitation, such as an office building after office hours or a warehouse.” 22 T
elevated risk exists whether the human habitation in question is a single-famil
home or apartment, a row house with a few units, or a multi-unit apartment
building. “[T]he unique wounds caused by residential burglary are independent d
the size or construction of the dwelling. They are the same for the mansion hou
and the boarding house, the tract home and the mobile home.” 23

So J.c.’s row house was a “dwelling” within the meaning of our first-degr
burglary statute. The evidence clearly sufficed to prove that her assailant ent
this dwelling with the intent to commit a crime inside it, and that someone els
present there when he did so. This latter statutory requirement, which is not i
dispute, was satisfied in two ways. First, it suffices that J.c.’s neighbor was
row house even though she was in her own apartment; a residential burglary
21
United States v. Rivera-Oros,
590 F.3d 1123 (/opinion/173036/united-states-v-rivera-oros/)

, 1130 (10th Cir. 2009)
(quotation marks omitted).
22
united states v. McClenton,
53 F.3d 584 (/opinion/695162/united-states-v-michael-mcclenton/)
, 588 (3d Cir. 1995).
23
v...

Rivera-Oros, 590 F.3d at 1130 (/opinion/173036/united-states-v-rivera-oros/)

11 of 27

12/4/2020, 1:55 PM

https://www.courtlistener.com/opinion/4680531/ruffin-v-united-states/

Ruffin v. United States - CourtListener.com

12
violates § 22-801(a) “if any person is in any part of [the] dwelling” at the ti
entry. Second, as in Edelen, this requirement also was met (even if no one else
been in the building at the time) because J.C.’s assailant pushed her into the
house ahead of him and she therefore was in the dwelling herself when he follow
her in.24

it is immaterial that the entry and the subsequent assault went no furth
the interior common hallway of the row house. This hallway was behind a locked
door; in no way was it a space so open to the public at large as to be consider
outside and not part of the private dwelling area. And as far as § 22-801(a) is
concerned, an entry is an entry; it does not matter where in a dwelling the inv

!

occurs, for all such intrusions pose the heightened risk of violent confrontati
other harms that the first-degree statute is meant to deter and punish, we thus
readily agree with the holdings of several other courts that, under burglary st|

24

The defendant in Edelen argued that he could not be convicted of firs'
degree burglary of the complainant’s apartment based on evidence that he forced
the complainant into it at gunpoint and followed her inside with the intent to
her. He argued that his entry into the apartment was not a first-degree burglar
because the complainant was not “occupying” the apartment when he encountered
her outside it and ordered her to go in. we rejected that argument and held it
sufficed to prove first-degree burglary that the complainant preceded Edelen in
the apartment and was “in" it at the time he stepped
}

in. 560 A.3d at 529-30

12 of 27 •

12/4/2020, 1:55 PM

https://www.courtlistener.com/opinion/4680531/ruffm-v-united-states/

Ruffin v. United States - CourtListener.com

13

comparable to ours, “an apartment dweller’s ‘dwelling house’ does include secur
common hallways.” 25

Appellant argues that this conclusion is foreclosed by our decision in
Edelen, in which this court held that the defendant committed first-degree burg
when he entered the complainant’s apartment, even though he began his attack on
her in the common hallway outside her apartment. 26 This argument is not correc
i

In Edelen, this court had no occasion to consider, and therefore did not consid
whether the defendant committed a first-degree burglary when he entered the
apartment building. The issue before the court was only whether his entry into
apartment constituted a first-degree burglary.

The two possibilities are

25
Commonwealth v. Goldoff,
510 N.E.2d 277 (/opinion/2000141/commonwealth-v-goldoff/)
, 281 (Mass. App. Ct. 1987);
id. at 280J/opinion/2000141/commonwealth-v-goldoff/)
("when this historical right to security in one’s place of habitation is
j
considered in the context of contemporary multi-unit residential structures, we'
think of no reason why that right should not apply to tenants who reach their
apartment units by a common hallway which they have collectively secured from
the general public by a locked door. . . . These [common] areas are not open to
public; they comprise a portion of each occupant’s dwelling house. The criminal
who unlawfully enters there violates the habitation of each of them, and each i
endangered by the possibility of confronting him or her[.]"); see also, e.g., S;
Bowman,
j
311 S.W3d 341 (/opinion/2106606/state-v-bowman/)

!
j
1
|
I

l.

, 345-47 (mo. Ct. App. 2010) (citing cases from other
jurisdictions and concluding that “the common areas in an apartment building ca1
constitute part of the apartment ... as long as the common area in question i
secured area not otherwise open to the public.”).
26
See footnote

24, supra

1

13 of 27

12/4/2020, 1:55 PM

https://www.courtlistener.com/opinion/4680531/ruffin-v-united-states/

Ruffin v. United States - CourtListener.com

14
mutually exclusive. Section 22-801(a) recognizes both possibilities by specifyi
that a first-degree burglary can be committed by entering either "any dwelling”;
any “room used as a sleeping apartment in any building.”

we reject appellant’s restrictive interpretation of D.C. Code § 22-801(a)
hold that the evidence was sufficient to sustain his conviction for first-degre
burglary.

B. Kidnapping while Armed

to

convict appellant of kidnapping J.C. in violation of D.C. Code § 22-26

(2019 Supp.), the government had to prove that he "intentionally seized, confih
or carried [her] away, and that [he] held or detained [her] against her will."2
There was ample evidence that appellant did all of those things by forcing J.c.
the hallway of her row house, closing the door behind him, detaining her there
knifepoint, and violently resisting her attempt to escape. Appellant contends,
however, that there was insufficient evidence to sustain his kidnapping convict

27

Kaliku v. united States,

i

994 A.2d 765
, 787 (D.C. 2010); see also Hughes
v. united States,
150 A. 3d 289

14 of 27

12/4/2020, 1:55 PM

Ruffin v. United States - CourtListener.com

https://www.courtlistener.com/opinion/4680531/ruffin-v-united-states/

, 306 (D.C. 2016) (“The essence of the crime of
kidnapping is the involuntary nature of the seizure and detention.” (internal
punctuation omitted)).

15
because J.C.’s detention lasted only about a minute-and-a-half and was
“incidental” to and “wholly coextensive with” the assault and attempted robbery
Appellant argues that offenses like robbery and sexual assault almost always
include some detention of the victim (though detention is not an element of the
and the legislature could not have intended the kidnapping statute to apply to
detentions that are “not distinct from another offense” of which the defendant
guilty. 28

This argument is not a new one. it has been made to us before, and we ha
i

rejected it. as this court stated in Richardson, the argument is “foreclosed" b!
“binding precedent.”29 we have held that “[t]he plain language” of D.C. Code §
22-2001

28
Richardson v. united states,
116 A.3d 434
, 438 (D.C. 2015).
29

Id. In support
of this statement, Richardson cited Hagins v. united
States,

1

639 A.2d 612
, 617 (D.C. 1994) (rejecting argument that defendant charged
with rape could not be convicted of kidnapping if the alleged “confinement” was
incidental to the sexual assaults, because “‘non-coextensive’ (or ‘non-incident!
confinement” is not a statutory element of the crime of kidnapping). See also
Spencer v. united states,
132 A. 3d 1163

15 of 27

12/4/2020, 1:55 PM

https://www.courtlistener.com/opinion/4680531/rufFm-v-united-states/

Ruffin v. United States - CourtListener.com

, 1173 (D.C. 2016) (“in Richardson, we
j
conclusively held that ‘non-incidental’ confinement is not an element of
j
kidnapping in the District of Columbia. . . . Richardson expressly denies that]
incidental nature of a detention is relevant to the sufficiency of a kidnapping
conviction in the District[.]”). we reject appellant’s argument that these case'
not decide the question because the court also held in each of them that even i
proof of “non-incidental” detention were required for kidnapping, the evidence
(continue
16

contains no exception for cases in which the conduct
underlying the kidnapping is momentary or incidental to
another offense. . . . “[Tjhere is no requirement that the
victim be moved any particular distance or be held for
any particular length of time to constitute a kidnapping;
all that is required is a ‘seizing, confining' or the like and
a ‘holding or detaining for ransom or reward ‘or
otherwise’”30

Accordingly, we hold that the evidence in this case was sufficient to sus
appellant’s conviction for kidnapping while armed.

III. Evidentiary Rulings

A. Admission of Expert witness Testimony on dna Match

Appellant argues that the trial court erred in denying his pretrial motioj
preclude testimony by a dna expert witness from Bode (Ms. Crenshaw) that was
(...continued)
would have been sufficient to sustain the kidnapping convictions at issue.
”[w]here a judgment rests on two independent and alternative rationales, both
rationales are holdings rather than dicta, even though strictly speaking neithe
rationale would be essential to the resolution of the case.” Parker v. K & L Ga;
LLP,
!

J

76 A.3d 859

, 878 (D.C. 2013) (McLeese, I., concurring) (citing woods v.
interstate Realty Co.,
337 ILS. 535 (/opinion/104694/woods-v-interstate-realty-co/)

i.

, 537 (1949), and Richmond Screw Anchor Co.
v. united States,

275 U.S. 331 (/opinion/101182/richmond-screw-anchor-co-v-united-states/)
, 340 (1928)).
30

Richardson, 116 A.3d at 439
(quoting West v. United States,

16 of 27

12/4/2020, 1:55 PM

https://www.courtlistener.com/opinion/4680531/ruffm-v-united-states/

Ruffin v. United States - CourtListener.com

599 A.2d 788

, 793 n.9 (D.C. 1991)).
17
based on unreliable DNA testing data generated by DFS. “we review a trial
court’s admission or exclusion of expert testimony for abuse of discretion and
disturb the lower court’s ruling when it is ‘manifestly erroneous.’” 31
Federal Rule of Evidence 702, which now governs the admissibility of expert
opinion testimony in our courts,32 the court may allow such testimony based on
preliminary determination of its evidentiary reliability. 33 The factors the co
must consider in assessing reliability include whether the testimony is “based
sufficient facts or data"34 and is the product of “reliable principles and meth
that “the expert has reliably applied ... to the facts of the case.”35

31
Dickerson v. District of Columbia,
182 A.3d 721
, 726 (D.C. 2018)
(quoting Benn v. United States,
978 A.2d 1257
, 1273 (D.C. 2009)).
32
This court adopted Rule 702 in Motorola, Inc. v. Murray,
147 A. 3d 751
(D.C. 2016) (en banc). Although this decision was rendered after appellant’s tr
we since have held that the holding of Motorola applies retroactively to cases
already tried but not yet final on direct appeal. See williams v. united States
210 A.3d 734
, 743 (2019).
33

J
Motorola, 147 A.3d at 754

(“[T]he trial judge must . . . ensure that any
and all scientific testimony or evidence admitted is not only relevant, but rel
(quoting Daubert v. Merrell Dow Pharmaceuticals, Inc.,
509JJ.S. 579j/opinion/112903/daubert-v-merrell-dow-pharmaceuticals-inc/)

] , 589
| (1993)).
34
Fed. R. Evid. 702(b).
35

17 of 27

12/4/2020, 1:55 PM

https://www.courtlistener.com/opinion/4680531/rufFin-v-united-states/

Ruffin v. United States - CourtListener.com

Id. 702(c), (d). (/opinion/112903/daubert-v-merrell-dow-pharmaceuticals-inc/)
18
Federal Rule of Evidence 703, which this court also has adopted, 36 permi|
i

|

an expert to base an opinion on otherwise inadmissible facts or data of which tj
expert has been informed “[if] experts in the particular field would reasonably
on those kinds of facts or data in forming an opinion on the subject.” in other
words, “the opinions of an expert witness may be based in part on hearsay or ot
inadmissible information as long as the hearsay or other inadmissible informati
meets minimum standards of reliability and is of a type reasonably (i.e.
customarily) relied on in the practice of the expert witness’s profession." 37
the court may not abdicate its gatekeeping responsibility to ensure the evident
reliability of expert testimony, it typically must “accord an expert wide latit:
choosing the sources on which to base his or her opinions.” 38 in general, “a
properly qualified expert is assumed to have the necessary skill to evaluate an

36
See
Motorola, 147 A.3d at 754
n.7; In re Melton
597 A. 2d 892
, 901 &
n.10 (D.C. 1991) (en banc).
37
in re Amey,
40 A.3d 902
, 910 (D.c. 2012).
38

Melton, 597 A.2d at 903

i . See also Cooper v. Carl A. Nelson & Co.,
211 F.3d 1008

18 of 27

12/4/2020, 1:55 PM

https://www.courtlistener.com/opinion/4680531/ruffin-v-united-states/

Ruffin v. United States - CourtListener.com

, 1020 (7th Cir. 2000) (”[E]xperts in various fields may properly rely on
a variety of sources and may employ a similarly wide choice of methodologies in
developing an expert opinion.”)

19

second-hand information and to give it only such probative force as the

stances warrant.”39 Therefore, “[i]n most cases, . . . objections to the reliab
out-of-court material relied upon by [an expert] will be treated as affecting o:
weight, and not the admissibility, of the [expert testimony].” 40

Applying the foregoing principles, we conclude that the trial court did n
abuse its discretion by denying appellant’s motion to preclude Ms. Crenshaw’s
testimony, in his motion, appellant cited the criticism of dfs by the anab and
the government’s panel of experts; argued that Bode could not “attest to the
accuracy” of dfs's dna test results; and asserted (without evidence) that “it i
not customary for an analyst from one dna lab to simply review” and draw
conclusions from raw test data provided by another lab. But the government

39

Melton, 597 A.2d at 903

I

. See also Kinser v. Gehl Co.,

184 F.3d 1259 (/opinion/158276/kinser-v-gehl-company/)

1275 (10th cir. 1999), abrogated on other grounds by weisgram v. Marley Co.,
528 ItS. 440 (/opinion/118337/weisgram-v-marley-co/)

(2000) (describing the rationale under Rule 703 for allowing experts
to testify to opinions based on evidence that is itself inadmissible as premise
the notion that “experts in the field can be presumed to know what evidence is
sufficiently trustworthy and probative to merit reliance.”).
40

Melton, 597 A.2d at 903

f

I

-04. see also Hose v. Chicago N.w. Transp. Co.,

70 F.3d 968

19 of 27

12/4/2020, 1:55 PM

Ruffin v. United States - CourtListener.com

https://www.courtlistener.com/opinion/4680531/mffm-v-united-states/

, 974 (8th Cir. 1995) ("As a general rule, the factual basis of an expert
j
opinion goes to the credibility of the testimony, not the admissibility, and it
the opposing party to examine the factual basis for the opinion in crossexamination.”).
20

successfully rebutted these contentions. It proffered the anab audit report and
other documentation showing, as the court found, that the criticisms of dfs
pertained only to its statistical interpretation of dna data, not DFS's procedu
for generating that data.41 The court was given no reason to think that the datj
furnished by dfs to Bode was unreliable. In addition, the government provided d
affidavit in which Natalie Morgan, Bode’s Director of Forensic Casework, averre
j

that "independent analysis and review of another Lab’s data is routinely comple
in the forensic dna field,” and that Bode itself performs such “independent
analysis/interpretation” in 20-30 cases per year. 42 no evidence contradicted t
averment. It supported the court’s finding that, contrary to appellant’s assert;

the data furnished by dfs was “the type of evidence that experts customarily reI
on.”

41
The report prepared by the panel of experts convened by the United St
Attorney’s Office was not submitted to the trial court in this case and is not
record before us. in its stead, the government submitted a copy of a discovery
letter conveying the substance of the panel report and also reporting that a me
of the panel had reviewed DFS’s work in this particular case and had “concluded'
that there were no specific issues which impact the DNA results.” See also
!
Barber, 179 A.3d at 893-94

20 of 27

12/4/2020, 1:55 PM

https://www.courtlistener.com/opinion/4680531/ruffin-v-united-states/

Ruffin v. United States - CourtListener.com

(explaining that none of the concerns with DFS's work
i
"cast doubt on DFS’s actual testing of the DNA samples in this case or any othe;
case sampled”).

42
Ms. Morgan defined “analysis/interpretation” as including “making
comparisons" between dna profiles.
21
At trial, appellant was able to cross-examine the government’s three expe
witnesses to identify any problems with the data and challenge the reliability
DNA testing and analysis. The jury received an accurate picture of each expert’
role. All three witnesses agreed that the issues raised by anab did not concern
the procedures followed by the two dfs witnesses to generate the “raw data” sen'
to Bode in this case. Appellant elicited no evidence to the contrary. The two q
1
witnesses described in detail the steps they followed to generate that raw data
including the measures followed to ensure the reliability of the results.
Crenshaw testified that these steps were shown in the data she received and
reviewed, and that it would have been evident to her from the “raw data” if the
i steps had been performed improperly. She found no problems or irregularities.
' This testimony was not impeached or contradicted.

we conclude that the trial court did not abuse its discretion in allowing
Crenshaw to testify, and in trusting the jury to evaluate the reliability of he
opinion and the information on which it was based.

B. Admission of the Knife

Appellant contends the trial court erred by admitting the knife recovered
from his jeans pocket into evidence. He argues that the knife was irrelevant
22
because it did not match J.c.’s description of the one her assailant used and t
was no other proof linking the knife to the assault. In overruling appellant’s
! objection to the knife’s relevance, the trial court found that the discrepancy
between J.c.’s description and the appearance of the knife went to the weight o'
the evidence but did not render it inadmissible. We agree.

21 of 27

12/4/2020, 1:55 PM

Ruffin v. United States - CourtListener.com

https://www.courtlistener.com/opinion/4680531/rufFm-v-united-states/

“Evidence is relevant if it has ‘any tendency to make the existence of an1
j fact that is of consequence to the determination of the action more probable or.
; probable than it would be without the evidence.’” 43

“The trial court e'

particularly broad discretion in determining the relevance of a piece of evideri
because the inquiry is fact-specific and proceeds under a flexible standard."44
a “highly discretionary” determination “will be upset on appeal only upon a
! showing of grave abuse.”45 we can find no such abuse here.

"An accused person’s prior possession of the physical means of committin
] the crime is some evidence of the probability of his guilt, and is therefore
43
Plummer v. united States,
813 A.2d 182

, 188 (D.C. 2002) (quoting Street
v. united States,
602 A.2d 141
, 143 (D.C. 1992)).
44
Richardson v. united States,
98 A. 3d 178
, 186 (D.C. 2014).
45
Riddick v. united States,
995 A.2d 212

22 of 27

12/4/2020, 1:55 PM

https://www.courtlistener.com/opinion/4680531/ruffin-v-united-states/

Ruffin v. United States - CourtListener.com

, 216 (D.C. 2010) (internal
quotation marks and citations omitted).
23
admissible.”46 it is relevant and admissible as “direct and substantial proof o
crime charged”47 if the weapon is “linked to both the defendant and the crime”
the connection is not “too remote or conjectural.” 48 in this case, two factors:
on the issue of relevance - whether the knife's appearance matched J.c.’s
description, and whether appellant was in possession of it around the time of t

crime. 49

As to the first factor, i.c. reported that her assailant wielded a silve
knife. The knife recovered from appellant’s jeans was a folding knife with a si
blade and a black handle. Although J.c. did not mention a black handle, the cou
reasonably could find that the recovered knife matched J.C.’s general descripti

46
Coleman v. united States,
379 A.2d 710
, 712 (D.C. 1977). Our cases
repeatedly have recognized this point. See, e.g., lones v. united States,
127 A.3d 1173
, 1185 (D.C. 2015); Daniels v. united States,

]

2 A.3d 250
, 262 (D.C. 2010);
Busey v. united States,

!

747 A.2d 1153
I , 1165 (D.C. 2000).
47

Jones, 127 A.3d at 1184
48
King v. united States,
j

618 A.2d 727
, 728-29 (D.C. 1993) (quotation
marks omitted).
49

Jones, 127 A.3d at 1185

23 of 27

12/4/2020, 1:55 PM

Ruffin v. United States - CourtListener.com

https://www.courtlistener.com/opinion/4680531/ruffin-v-united-states/

(“ultimately, the admissibility of evidence of a
defendant’s prior possession of the weapon or type of weapon used in a charged
offense turns on a consideration of the temporal proximity of the incidents of
possession to the charged offense and a comparison of the appearance of the
weapon previously possessed by the defendant with that of the weapon actually
used in the charged offense.”).
24
especially given the obvious likelihood that the handle of the knife was not cl
visible to l.C. when her attacker was grasping it and threatening her with it.5
Appellant argues that J.c. was not shown appellant’s knife and never identified
as being, or looking like, the knife held by her assailant. The absence of such;
identification does not diminish the probative value of the fact that the knife
J.C.’s general description of the weapon, as to the second factor, although the
police did not find the knife until they arrested appellant eleven months later;
appellant stipulated that he had it in his possession at a time only seven week;
!
the crime was committed. This was not so long after the crime as to deprive the:
;
evidence of any probative value.51 we think the trial court fairly could concld
from these facts that appellant’s possession of the knife was "some evidence of
probability of his guilt” and therefore relevant.52 “it is true that the eviden
established only a reasonable probability, and not a certainty,” that appellant!

50
See, e.g., williams v. united States,
106 A.3d 1063
, 1069 (D.C. 2015)
(upholding admission of evidence that the defendant’s weapon met “the same
general description as the one used in the charged offense”);

|

Daniels, 2 A.3d at 254

, 262 (upholding admission of testimony that defendant had been seen with a
black gun and a silver gun where witnesses had described murder weapon as eithe
black or silver).
51
In some cases, evidence of a defendant’s possession of the weapon use
in a charged offense has been held admissible even though many months separated
the possession from the crime. See
|

)
Jones, 127 A.3d at 1186
j (citing cases).
52

Busey, 747 A.2d at 1165

24 of 27

12/4/2020, 1:55 PM

https://www.courtlistener.com/opinion/4680531/rufFm-v-united-states/

Ruffin v. United States - CourtListener.com

(quotation marks omitted).
25

possessed the knife used in the assault on J.C. 53 “But the connection of the [i

!

with the [assault] was not ‘conjectural and remote,’ . . . and so the lack of c
goes to the weight of the evidence, not its admissibility.” 54

Appellant argues that any probative value the knife had was outweighed by
the danger of prejudice, which he identifies on appeal only as the implication
“he was a violent man who carried a knife." 55 Appellant faults the trial judge!
failing to balance the danger of such prejudice against the limited probative v
of the knife.

The point is not well-taken, however, “in general, if evidence is relevan
should be admitted unless it is barred by some other legal rule.” 56 In other w
upon a finding of relevance, the knife was presumptively admissible. It is true
relevant evidence may be excluded, in the trial court’s discretion, if the cour
that its probative value is substantially outweighed by a danger of unfair

53

Id. 54 Id.

(quoting Burleson v. united States,
306 A.2d 659
, 662 (D.C. 1973)).
55
Brief for Appellant at 43.

56
in re L.c.,
92 A.3d 290

25 of 27

12/4/2020, 1:55 PM

https://www.courtlistener.com/opinion/4680531/mffin-v-united-states/

Ruffin v. United States - CourtListener.com

, 297 (D.C. 2014).

26
prejudice.57 Thus, if a defendant identifies a risk of unfair prejudice from pr
evidence and explains how that risk outweighs the probative value of the eviden
the judge must balance the probative value of the evidence against that risk. B’
“[j]udges are not clairvoyant.” 58 The responsibility to identify the risk and
the issue of unfair prejudice with specificity for the judge’s consideration is
party seeking protection from it - meaning, in this case, on appellant.59 It is
judge’s role to assume that responsibility, snoop out the facts, and construct
argument for the litigant. Yet when the relevance of the knife was argued and
decided in this case, appellant did not argue that it posed any risk of unfair

57
Johnson v. united States,
683 A.2d 1087
, 1100 (D.C. 1996) (en banc)

(adopting Federal Rule of Evidence 403). The term "unfair prejudice” means the
evidence has “an undue tendency to suggest decision on an improper basis,
commonly, though not necessarily, an emotional one.” Comford v. United States,
947 A.2d 1181
c
1187 (D.C. 2008) (citations omitted).

58 Will, v

1

| . Dieball,

J

724 F.3d 957
i

i

, 963 (7th Cir. 2013).

59
See

Comford, 947 A.2d at 1188-89

(holding that defendant did not
preserve Rule 403 claim “effectively” where, though he cited the Rule, he gave
trial judge “no reason at all why” the testimony he moved to exclude “would be
irrelevant or unfairly prejudicial, or why the risk of unfair prejudice would
substantially outweigh its probative value”); see also

1

Williams, 724 F.3d at 962

26 of 27

12/4/2020, 1:55 PM

Ruffin v. United States - CourtListener.com

https://www.courtlistener.com/opinion/4680531/ruffin-v-united-states/

(claim that trial court erred by admitting evidence without balancing its proba1
value against prejudice as required by Rule 403 held forfeited where motion in j
limine “did nothing more than give a barebones recitation of the relevant stand
and “then conclusorily state that it was met” with no explanation of "how or whj
the balancing test should result in exclusion").
27
prejudice at all. 60 Nor, in our view, was any such risk apparent. Contrary to
appellant’s unsupported claim (made for the first time on appeal), appellant’s
possession of the (concededly lawful) knife did not brand him as a "violent”
individual. The knife was not inflammatory evidence calculated to appeal to the1
jury’s emotions and prejudice the jury against appellant. And as the judge stati
when rendering her decision that the knife was relevant, appellant could challe
its probative value through cross-examination.

we conclude that the trial court did not abuse its discretion by admittin
knife into evidence.

IV. Conclusion

For the foregoing reasons, we affirm the judgment of the Superior Court.

60
Appellant’s written motion to exclude the knife contained nothing beyo
a perfunctory, half-sentence assertion in passing that “introduction of the kni!
more prejudicial than probative.” The issue of prejudice versus probative value
was not mentioned at all in the argument on the motion.

Newsletter

Email Address

mi Subscribe

Sign up to receive the Free Law Project newsletter with tips and
announcements.

27 of 27

12/4/2020, 1:55 PM

https://www.courtlistener.com/opinion/4680531/ruffin-v-united-states/

Ruffin v. United States - CourtListener.com

☆

Cited By (0)
(/feed/search
Ruffin v. United States, 15-CF-1378 (D.C. 2019)
/?type=o&
q=cites%3A(445778Sj?trict of Columbia Court of Appeals
This case has not yet been
cited in our system.

Filed: November 21st, 2019
Precedential Status: Precedential

0 Get Citation Alerts (/?show_al&if3tii^l^^<^W&%3A(4457784))
Docket Number: 15-CF-1378
Download Original ▼

Authorities (9)
This opinion cites:
• Daubert v. Merrell
Dow
Pharmaceuticals,
Inc., 509 U.S. 579
(/opinion/112903
/daubert-v-merrelldow-pharmaceuticalsinc/?) (2 times)
• United States v.
Rivera-Oros, 590 F.3d
1123 (10th Cir. 2009)
(/opinion/173036
/united-statesv-rivera-oros/?)
(2 times)
• Commonwealth v.
Goldoff, 510 N.E.2d
277 (Mass. App. Ct. 1987)
(/opinion/2000141
/commonwealthv-goldoff/?) (2 times)
• Woods v. Interstate
Realty Co., 337 U.S.
535 (/opinion/104694
/woods-v-interstaterealty-co/?) (1 time)
• Weisgram v. Marley
Co., 528 U.S. 440
(/opinion/118337
/weisgram-v-marleyco/?) (1 time)
View All Authorities (/opinion/4680531/ruffin-v-united-states/authorities/?)

Related
Opinions
The following opinions cover
similar topics:
• Edelen v. State
(/opinion/2139168

1 of 27

12/4/2020, 1:55 PM

Btetrict of Columbia
Court of Appeal*
a

LEIIB
JUN26 2020

No. 15-CF-1378

DISTRICT OF COLUMBIA
COURT OF APPEALS

LEVI M. RUFFIN,
Appellant,

CF1-13804-14

v.
UNITED STATES,
Appellee.
BEFORE:

Blackburne-Rigsby, Chief Judge; Glickman, * Fisher, * Thompson,
Beckwith, Easterly, McLeese, and Deahl, Associate Judges; Ferren, *
Senior Judge.
ORDER

On consideration of appellant’s petition for rehearing or rehearing en banc,
and appellee’s opposition thereto, it is
ORDERED by the merits division* that the petition for rehearing is denied;
and it appearing that no judge of this court has called for a vote on the petition for
rehearing en banc, it is
FURTHER ORDERED that the petition for rehearing en banc is denied.
PER CURIAM
Associate Judges Beckwith and Easterly would grant rehearing en banc.
Copies to:
Honorable Rhonda Reid Winston
Director, Criminal Division

No. 15-CF-1378
Copy e-served to:
Debra L. Soltis, Esquire
Elizabeth Trosman, Esquire
Assistant United States Attorney
pn

